No. 20-542

In the Supreme Court of the United States
REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY
AS SECRETARY OF PENNSYLVANIA, ET AL.,
Respondents
CERTIFICATE OF COMPLIANCE
I hereby certify that the Brief in Opposition to Petition for Certiorari in the
above case contains 7,123 words within the meaning of Sup. Ct. R. 33.1. In making
this certificate, I have relied on the word count of the word-processing system used to
prepare the document, and I am a member of the bar of the Court. A copy of this
certificate has been served on counsel for petitioners.

s/ J. Bart DeLone
J. BART DELONE
Chief Deputy Attorney General
Dated: November 30, 2020

